* *

K

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Lamont R• Reed

— PETITIONER

(Your Name)
VS.
Scott Frakes, Director
— RESPONDENT(S)
Nebr. Dept, of Corr. Svcs.

PROOF OF SERVICE
Lamont R• Reed

_________________ , do swear or declare that on this date,
, 20 2±_, as required by Supreme Court Rule 29 1 have
January
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

I,

The names and addresses of those served are as follows:
AustiniFi' Relph, Assistant Attorney General, 2115 State Capitol, Lincoln
68509-8920

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

January

He

,20_il

RtA

(Signature)

NE

No.

IN THE SUPREME COURT OF THE UNITED STATES

LAMONT R. REED, PETITIONER
V.
SCOTT FRAKES, DIRECTOR, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
DECLARATION OF INMATE FILING

I, Lamont R. Reed, am an inmate confined in an instution (Nebraska State
Penitentiary. Today, January 16, 2021, I am depositing the MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI in this case
in the institution's internal mail system. First-class postage is being prepaid
by me or by the institution on my behalf.
I declare under penalty of perjury that the foregoing is true and correct
(see 28 U.S.C. § 1746; 18 U.S.C. § 1621).
Executed on January 16, 2021

W)

Lamont R. Reed #83510'
Nebraska State Penitentiary
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161
PRO SE PETITIONER

